Supreme Court, U.S.
FILED

No.

30-I7S3

MAR 1 8 2021
OFFICE OF THE CLERK

In The
Supreme Court of the United States
JOSEPH D. GILBERT!, JIL, PJ3.,
an Individual and licensed Professional Engineer.
Petitioner
v.
ADRURRA GROUP, INC., a Florida corporation
Oca. King Engineering Associates, Inc.,
HENN1NGSON, DURAM & RICHARDSON, INC.,
a Florida corporation aJea. HDE, Inc.,
STANTEC CONSULTING SERVICES, INC., a Florida corporation,
CAROLLO ENGINEERS, INC., a Florida corporation,
PROGRESSIVE WATER RESOURCES, LLC, a Florida limited liability
cscUjpoitftfettKn,,

HAZEN AND SAWYER, PC, a Florida corporation,
Respondents)

On Petition for Writ of Certiorari
To The Appeal Decision of the US Court of Appeals 11th Circuit
Case #19-15176
United States Middle District Coart of Florida
Case # I9-CV-02012
Date: May 21,2021

m

faIfbe fiMenti
Joseph D. Gilberti PE
Petitioner
385 Donora Blvd
Ft Myers Beach, FL 33931
813-470-6000
gilbertiwater@gmail.com
www.gilbertibluegold.com

$

RECEIVED
JUN I - 2021
SURREEMEFpTnl

QUESTIONS PRESENTED
I. Why did the lower Court with Governor Desantis. EPA, and Florida
Department of Environmental protection, along with multiple City/County
and State Agencies hire these consultants to design around a unique
underground river, owned by the Respondent and his clients, of endless dean
unique alkaline spring Water in their continuing service contracts for
decades to purposely LOWER THE LEVEL OF SERVICE of Water Quality to
the TAPS in West Florida to INCREASE Cancer rates and big pharma sales
in the West Florida Regions with Tampa Moffit-USF?
2. Why did the US Congress pick a SCOTUS during the 2020 Election after US
Supreme Court Justice Ginsberg died, knowing they were entering a
Racketeering case at the US Supreme Court. Why is the US Supreme Court
and all US Congress, with this case, and others related as listed, in plain
view causimg an OBSTRUCTION OF JUSTICE BY CONGRESS AND US
SUPREME COURT with ABUSE OF DISCRETION to hide this World
Resource from America with the Federal Reserve who put the Coronavirus
mask on the S20bill after 9-11 with this foohsh spoiled gang of Judges, Yale,
Harvard, Notre Dame and Ivy league stuck up Kid Killers hiding BLUE
GOLD to the Taps of Humanity and America.
3. Why are licensed Professional Engineers hiding America’s most valuable
National Defense Resource in liquid medicine, water supply, economic
stability, with a Terrorist Enterprise using HR-5736 Smith Mundt
Modernization Act of 2012 to subdue the Respondent with a network of
Politicians, Engineers, Agencies, Judges, Cops, School boards, Media and
more which attacking the land simultaneously in civil courts with others?
4. This quickly signed Congressional Terrorist Act was initiated to subdue the
Petitioner with timed Acts days after the 50yrs hidden World Resource was
discovered and emailed across the State of Florida an USA in April of 2013.;
to Leaders, Media, US Military, local land Developers, Politicians, Cops and
Respondents.
5. Why are all Respondents hiding this US Resource when Viruses travel in
Water Supply as much as the air during a National Coronavirus Pandemic?
This hidden US Resource shows us through geotechnical engineering maps at
both Department of Interior and Peace River Manasota Regional Water
supply in west Florida how to find many more of these unique resources may
he found across Earth in days; as shown in recent permits in a new Case filed
in Central California, Gilberti vs CPC, et aL. Case No. 2:20~CV-08251-FMO_
Judges, Courts and Agencies tied to this case and other RICO cases was filed
1

in California* due to so much court corruption in Florida, Georgia and
Washington DC by Judges and Attorneys hiding this for Respondents who
attacked not just America but Humanity.
6. Why are multiple Courts, Judges, Law-Firms, Lawyers, Universities, Large
Engineering Firms, Media, Politicians, Police. School Boards and
Respondents hiding this US Medicine resource to attack Americans in a
Coronavirus Pandemic and using Courts and Judge Orders to PRETEND this
Racketeering Enterprise and US Resource doesn’t exist? Riding ONE
DECISION by Judge Ketanji Brown Jackson who never allowed discovery to
hide this US Resource from ALL AMERICA, knowing the Pandemic was
©mming via the $20foa!l by the Federal Reserve.
6. Why are respondents who are local Engineers who design water systems
failing EPA and Florida Department, of Environmental Protection Laws and
Codes to PURPOSELY lower Die Level of Service of Water Supply, cost more
to maintain systems by ignoring the HIGHER LEVEL OF SERVICE raw
resource available for decades, in a racketeering group of Hospitals, attorney
Politicians, US Navy Kyoto Protocol with UN; and Obama-US Navy and Blue
Green Algae bio-fuel grants in Lake Okeechobee which now have mutated in
&1® air with a GMOs inundating most Wells in Florida, which Media hides,
to destroy Water Supply for millions of taps in West Florida with
Respondents.
WHILE HIDING THIS RESOURCE WITH TERRORISM
ACTS, COPS, and SCHOOL SHOOTINGS AND BOSTON MARATHON
EXPLOSIONS to raise bonds, as shown in Gilbert! vs GDC case and this
case, as well as many more.

2

PARTIES TO THE PROCEEDINGS

The Petitioner is Joseph D. Gilberts, P.E., an Individual and
Licensed Professional Engineer in Florida, PE No. 56079. Petitioner is also the
landowner with access to the hidden underground World Resource, the Engineer of
Record in final permit approval of the hidden US Resource pipeline transmission to
serve West Merida in months with a connection (FDKP Permit Facility ID: 6142734
DEP Application No.: 78714-026-DS; is requesting full discovery and investigation
on a hidden Florida underground endless unique Global Water Supply, Energy and
Medicine Production Resource. NASA, MPA, Federal Reserve, Bush Family, Dept of
Interior, Tfflmnpai^Manatees®arasota, SWFWMD and Respondents Md this
underground endless resource for years.
The Respondents axe ADRURRA GROUP, INC., a Florida corporation fka.
Ring Engineering Associates, Inc., HENNINGSON, DURAM & RICHARDSON,
INC., a Florida corporation a.k.a. HOR, Inc., STANTEC CONSULTING SERVICES,
INC., a Florida corporation, CAROLLO ENGINEERS, INC., a Florida corporation,
PROGRESSIVE WATER RESOURCES, LLC, a Florida limited liability
corporation, HAZEN AND SAWYER, PC, a Florida corporation; all of which are
hiding the Resource collectively with their councils.
Although certain respondents who are the center of the Timed Terrorist acts
are in related cases and did not respond to this case and related cases on file, such
as but not limited to the Barrack Hussein Obama, Hillsborough State Attorneys
office, Florida Department of Environmental Protection and 72 Partners, LLC.

3

TABLE OF CONTENTS
Page

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

3

TABLE OF CONTENTS

4

OPINIONS BELOW

5

JURISTICTION STATEMENT

6

SUMMARY OF THE CASE FACTS

7

CONCLUSION

9

APPENDICES
APPENDIX I

APPENDIX H

- OPINIONS OF LOWER US DISTRICT
COURTS CASES 19-15176 & 194)2102

1-17

- NEW CIVIL RIGHTS, COURT FRAUD
AND RACKETEERING CASE IN CALIFORNIA
ON CORRUPT COURTS, JUDGES, LEADERS
TIED TO THIS CASE AND OTHERS
w/PERMITTING WATER SUPPLY CORRES
1-47
With OFFICIAL Court, Serviced Subpoena to
President Donald J. Trump (2016-2020)
At Mar a Largo on March 2021
With Counterclaim to PENTAGON-CIA-FBI
Florida Congress-Senate-US Supreme Ct, et al

4

OPINIONS BELOW
Appellant seeks review of the Memorandum Opinion of lower Appeal court
for the ll1* Circuit in Georgia (see Appendix I) that simply road the Judge Kentanji
Brown Jackson of the United States District Court for the District of Columbia in
case number 2:19-cv-00738, for Gilberti vs Federal Reserve, et aL, which
includes all Congress and Obama. The Opinion, issued on April 29. 2019
(Appendix I) dismissed the Case without Prejudice within 30days, the same day
the Clerk signed the summons for service, as fictitious and/or ‘Patently
Insubstantial1 for the entire complaint, WITHOUT ANY DISCOVERY that involves
8-14yrs of extensive civil engineering and water supply infrastructure
immpmnfvements in West Florida covering 4-10 Counlywide Region which is hiding an
endless underground spring Aquifer while utilizing Radioactive arsenic mining spill
rivers that are heavily treated to the Tap. The Lower courts for this case simply
called all cases the same, and nitch all DISCOVERY with the same pool of
Racketeering Lawyers and Judges that just keeps growing all the way to the Bush
Family Ranch and Rothschild Central Banks, FBI corruption and the STUPID
ELECTION that brings nothing but LIARS and CHEATS, now shown at the US
Supreme courts too.
Forfc Myers, Tampa and Georgia Judges are Terrorist like Judge Jackson who
all played STUPID and held sua sponte that the case lacked Jurisdiction and is
based on Conspiracy theories without any diligence or expert testimony from
agencies who have now been served that have Mission Statements and Tax paid
civil duties to utilire the best raw water resources for the Public.
Attached in the Appendix II are record permit correspondence by the
Florida Health Department, exhibits, with comments regarding the resource from
local County, State engineering and Federal agencies such as the Army Corps,
Department of Health, Southwest Florida Water Management, Sarasota County,
Florida Department of Environmental Protection with comments, thousands in fees,
with stamped in water readings in 2013 just, after the Terrorist attacks by the
Enterprise to kidnap Plaintiff, to the Health Department with endless ready to
drink spring water from this; underground river centralized in the Peace River
Manasota 4 County infrastructure.
This current west Florida infrastructure the Respondents claim are the only
raw r
available while Florida and US Judges attack Petitioners rights,
home, land, kids and project; is using Treated polluted Rivers while hiding endless
underground rivers of never seen before spring water (Blue Gold) for over 50yrs for
a massive Eugenics and Real Estate racketeering operation by respondents and
more in related cases. See Gilberti vs GDC, et al case in California on DC.
Georgia and Florida/US District Judges who harbored Terrorism, helped
5

kidnap Petitioner with Tampa, Broward, Fort Myers and Sarasota RICO
gangs of Cops, Firemen, School Boards, Teachers, Judges, US Marshals,
Secret Service, CIA and bounty hunters known to steal Children for these
RICO suspects with local Churches, JEFFERY EPSTTEIM and Boca ADL.
The lower court judge like many judges who harbored these Terrorist attacks
timed with this Water War and called this whole complaint and critical situation
fake is ‘Patently Ridiculous1. It is patently unacceptable far a Judge to dismiss a
case, or any Judge Panel, to SKIP ALL DISCOVERY, with an obvious abuse
Discretion by the Courts, due to a SCOTUS being picked during the Election when
all congress, Biden and Obama were docketed with Petitioner, at the US Supreme
Court horn 9-11-2020. You cannot pick a Judge heading into a Racketeering case
with the healthiest Aquifer in the World, then hide it from all America, is ABUSE
OF DESCRETION AND OBSTRUCTION OF JUSTICE.
A new filed Civil Rights case if filed in California for Court Fraud and
Racketeering on Judges throughout Florida and the Eastern United States. Some
of which are US Supreme Court Judges under investigation.
JURISDICTIONAL, STAY SCi I MiC'lT
This Court has jurisdiction over this action pursuant to 28 U.S.C. §§ 1331,
1332 and 2201 and may exercise supplemental jurisdiction under 28 U.S.C. § 1367.
Since claims are made regarding a VERY BEAT, natural resource being hidden by
Respondents and others in a Water Eugenics racketeering operation to design
around the REQUIRED RESOURCE owned and permitted by the Petitioner.
Although lands under attack are in West Florida, many more of these resources
exist throughout the nation, such as near Flint Michigan, Mew Mexico, Texas,
ATIahsamma,, Washington DC and across Earth
Venue is proper pursuant to 28 U.S.C. § 1391.
This Court has personal jurisdiction over each DEFENDANT as each
purposefully availed itself of the privilege of exploiting forum-based business
opportunities and the exercise of personal jurisdiction is consistent with the U.S.
Constitution.
The District Court had jurisdiction to review the Petitioners Water supply
and public permit records in its possession. The court abused its Discretion,
avoided just claims and all discovery breaching Petitioners civil rights and Freedom
of Information Act (TOIA”) for this case, and related cases regarding years of
Water supply engineering, moreover, the location of a massive underground hidden
critical raw water resource, centralized within a 4-10 County infrastructure in West
Florida.
6

Bequests pursuant to 5 U.S.C. § 552(a)(4)(B) and 28 U.S.C. § 1331. The lower
court; held sua sponte that the claims at issue are “Patently Insubstantial or
‘“fictitious" under, without any diligence to the obvious Water resource, as a result,
it lacked subject-matter jurisdiction to resolve the claim.
This Court has jurisdiction to review this appeal pursuant to 28 U.S.C.
§1291. This appeal is from a final judgment entered by a District Court within the
District of Columbia Circuit on April 29,2019 disposing of all parties' claims.
Plaintiff filed a timely notice of appeal to US District Court of Appeals for
the 11th Circuit on December 27, 2019, Case No. 19-15176 which all discovery
was ignored and dismissals were timed with more attacks on the land as they are
all working with a front called 12 Partners, tied to Cl Bank, Ozark Bank and
Community Bank of Manatee, Debartolo in Tampa, Neil Benderson, Pat Neil
Lakewood Ranch, Hugh Culverhouse, Lennar Homes, WCI, US Homes and more
washing billions in bank notes from CDD and Infrastructure racketeering.

SUMMARY OF THE CASE FACTS
A Racketeering Complaint was filed on multiple large and small engineering
firms working with water supply agencies and large corporations who have a small
isolated Racketeering and Water Supply Eugenics Enterprise centrally networked
in west Florida from Tampa to Naples Florida which is Politically connected across
America, UN and Washington hiding a critical unique underground resource in
Medioinie Production, Endless Unique Water, Food and Energy production.
The case was dismissed by riding a similar case decision via Gilberti vs
Federal Reserve, et aL where a Political hungry, Ohama-Biden appointed Judge
Kentanji Brown Jackson, avoided all discovery, attacked Petitioner's civil rights,
and dismissed the case, in hours, without summons being signed for service by the
Clerk on April 29, 2019, only 30days from the filing. Preventing over 15 tax paid
agencies, and appropriate staff like Engineers and labs, to analyze this resource,
and sent in Judges and lawyers who know NOTHING, to attack America and
Humanity.
Research show Judge Kentanji Brown Jackson is new without much
experience and was immediately nominated for US Supreme Court Justice by a
indent ex-President Barrack Hessian Obama, both Harvard colleagues.
Therefore, many Respondents, much of whom are Federal Tax paid agencies with
overall Missions Statements created to insure the Healthiest and Safest raw
drinking water resources to the Public used this Judge to hide the Resource with
many more Judges from Americans without any care for dying US Families from
Cancer Rates who are currently utilizing polluted Radioactive treated arsenic
Florida rivers calling it ‘Patently Insubstantial’.

The Judge simply copied a template from another case (which has been used
by her multiple times in a Political nature) and Politically dismissed the case in a
few minutes to protect Barrack Obama and Florida Leaders and/or Defendants
hiding this Resource in a Big Pharma Enterprise with timed terrorism attacks that
can be shown in Discovery. Judge Brown should be removed from her position and
arrested for negligence and harboring Terrorism timed with hiding this critical
underground hidden US Resource. She is included with many more in the new filed
CbME Rights case tied to this case that shows specific names, dates, and timeline of
8yrs of US Treason by multiple leaders, agencies, courtrooms, lawyers and more.
No Discovery was permitted or service from agencies that have a mission
isfrafamnenfr to help the Citizens get this resource to their taps as itfs endless and its
water quality is off the chart for health compared to any bottled water or mixture
known to Mankind. It takes a few hours of time to verify the resource with
engineers, labs and/or a qualified professional company and now has been processed
for final permit, so it is very real, not fictitious. Who are these crazy US Judges
and courtrooms who hide clean water, jobs and more for Politicians and Terrorist?
This is US TREASON by Judges!
This resource will show with its knowledge many more similar resources of
like and kind, across America which NASA and the Dept of Defense, EPA and
FEMA are hiding from THE PEOPLE, including Washington DC, Camp Leguene,
Flint Michigan, Mexico, Texas, Panhandle, California, New Mexico, other Nations
in the dessert, from its geological indicators.
Oil Consultants who verified the resource can provide data in Discovery
within the Agencies over the years at the Department of Interior, EPA, Army Corps
ofEngineers, Southwest Florida Water Management District, who hid this Resource
with the Bush Family. Congressional Leaders, Lawyers, Engineering consultants
with NASA and various Universities to create medicine, vaccines, diseases, higher
Cancer Rates from poor raw treated water resources. This Water culling created
more reasons for Colleges, tuitions, games that ties to Racketeering our Federal
funds to do 501(c)(3) Cancer Research Grants at USF-Moffit Tampa, to study sick
and dying children, families, and animals from purposely treated radioactive rivers
to the Tap versus this endless Antioxidant spring water to the Tap to millions of
tourist and Americans.
New-filed Racketeering case Gilberti vs Center of Disease Control and.
Prevention, et al. in California District Courts, Case 2:20-CV-08251-FMO
that within days tried to illegally hide service to ex-President Donald Trump, do he
can expose tike Corruption across Congress, Florida and the Judiciary on the World
Resource, which did make it officially at Mar-a-Largo, Palm Beach on March 5,

8

2021 and recorded in Courts with signed service through Secret Service at Mar a
Largo. See Appendix IL
The Town of Palm Beach engineering department and all County Leaders
from Tampa to Miami, State Attorneys, Police Chiefs, Hospital boards in region also
have the cases, Terrorism and Obstruction of Justice at the US Supreme Court
issue loaded in the Ghiberti vs GDC case and more cases being filed on Judges.
This new case will show Discovery with Professional Engineers with years of
experience in Water Supply versus a Harvard Lawyer Judge Kentanji Brown
Jackson, from Miami Florida who knows we have water problems and of my
presentations to Miami-Dade on July 13, 2014 at Commission, Item 1E1 and
Broward County on April 12, 2016. Judge Kentanji Brown Jackson is from
Harvard like Obama and is friends with the Defendant ex-President Barrack
Obama, who hid this Resource with the Bush Family as we can show with witness
Leaders who said they saved this US Resource for 9-11 Sarasota Kids Classroom
Pedophiles George/Jeb Bush wishing they had deeds to this US Resource for Israel
Mosaic Phosphate to get campaign money and more to be the next President and
kill millions of more kids, pets and families with virus and cancer rates in water
supply.
This was stated in front of 5 witnesses and a Cop in the Chambers of City
Council in 2014. This project has been delivered to multiple Cities and will show a
Massive enterprise of Florida Leaders, US Leaders attacking America as these
underground resources are hidden across the nation by Elite tied directly to a
massive Pedophile ring in Florida near Palm Beach, Broward and up along the
West Coast of Florida involving DCF, Cops, media groups and major land
developers.
CONCLUSION
The Judgment of the court of appeals and lower court should be reversed
and all Respondents should be called in for a Discovery and investigations on said
issues, the US Resource and why they hid this critical medicine production
Resource with timed Terrorist attacks from America and Humanity, shown in
Public Records with many witnesses ready to testify.
Even now in a Corouavirus Pandemic across Earth with a mask shown on
the $20SmH since 2003 for the Federal Reserve’s private Rothschild Global World
Bank Monetary Fund and their 9-11 Deep State Blue Gold Bush family games of
Water Supply and Eugenics, Acts of Treason with RESPONBANTS WHOSE
ENGINEERS KNOW PETITIONER FOR DECADES IS AN HONEST ENGINEER
AND THE RESOURUCE IS REAL, not one Judge will risk ordering a Water Test

9

for all Humanity, but instead ride the original N1TCH Judge Brown did in the
Gilbert! vs Federal Reserve case, as attorneys and Judges are in the Enterprise too.
Mo Respondent who is licensed and must show Engineering ethics on this issue will
NOT DARE investigate this Resource which is part of their continuing service
contracts, as they in a massive Eugenics operation with Media, doctors, lawyers and
developers in West Florida. THE EXPOSURE OF THIS RESOURCE WOULD
HAVE AFFECT MILLIONS OF VOTES, Presidential elections back to 2012,
when Obama and Mitt Romney with this enterprise attacked Petitioner with
Tampa Circuit 13, the day after the Tampa RNC, to manipulate Elections as this
resource puts all of them in Jail for obvious reasons. What about the poor cancer.
Mdffi dying fironm water supply?
A new filed Fraud Racketeering and Water Supply Eugenics Case against this same
group of West Florida professionals, Judges, Cops, Lawyers working with Florida
Congress and Desantis-Biden to hide this World Resource has-been filed. The
Eugemcs-Racketeering-Tcnts-Couxt Fraud Counterclaim, includes but not limited
to, the PENTAGON, FBI, CIA, US SUPREME COURT JUSTICES, FLORIDA
SENATE & CONGRESS AND MORE in Sarasota Case 72 Partners vs Joseph
Gilbert! PE., Case No.: 2021 CA 001009 NC showing timed Terrorism attacks and
Sdbodl Sheetings to subdue Engineer Gilbert! the PETITIONER, with new police
reports for Fraud and US Crimes submitted by others.

10

